     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



June 2, 2010

Report Number: A-07-10-00326

Ms. Jean Rush
President
CIGNA Government Services
Two Vantage Way
Nashville, TN 37228

Dear Ms. Rush:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Contractor’s Pension Segmentation
Requirements at CIGNA Government Services, LLC, for the Period January 1, 2004, to
January 1, 2008. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00326
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jean Rush

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
    Department of Health & Human Services
              OFFICE OF
         INSPECTOR GENERAL


 REVIEW OF MEDICARE CONTRACTOR’S
      PENSION SEGMENTATION
     REQUIREMENTS AT CIGNA
GOVERNMENT SERVICES, LLC, FOR THE
    PERIOD JANUARY 1, 2004, TO
          JANUARY 1, 2008




                         Daniel R. Levinson
                          Inspector General

                             June 2010
                           A-07-10-00326
                           Office of Inspector General
                                             http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50 States
and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of Justice
and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often lead to
criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

CIGNA Government Services and Medicare

During our audit period, CIGNA Government Services, LLC (CGS), administered Medicare
Part B and durable medical equipment operations for Connecticut General Life Insurance
Company (CGLIC), the legal entity that entered into these cost reimbursement contracts with the
Centers for Medicare & Medicaid Services (CMS). In addition, CGS administered Medicare
operations under a Medicare administrative contractors contract with CMS. CGS and CGLIC
are wholly owned subsidiaries of CIGNA Corporation.

CGS participates in a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

In resolution of our prior pension segmentation audit, CGLIC executed a pension closing
agreement with CMS to establish a final settlement of the January 1, 2004, Medicare segment
asset base.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated specific segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether CGS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

    •   implementing the January 1, 2004, Medicare segment asset base established by an
        executed pension closing agreement between CGLIC and CMS, and

    •   updating the Medicare segment’s assets from January 1, 2004, to January 1, 2008.




                                                 i
SUMMARY OF FINDINGS

CGS properly implemented the January 1, 2004, Medicare segment asset base established by an
executed pension closing agreement between CGLIC and CMS. However, CGS did not always
comply with the Medicare contracts’ pension segmentation requirements when updating
Medicare segment assets to January 1, 2008. CGS identified Medicare segment pension assets of
$17,014,151; however, we determined that the Medicare segment pension assets were
$16,671,408 as of January 1, 2008. Thus, CGS overstated the Medicare segment pension assets
by $342,743. The overstatement occurred primarily because CGS did not properly assign
earnings, less administrative expenses, to the Medicare segment.

RECOMMENDATION

We recommend that CGS:

   •   decrease Medicare segment assets as of January 1, 2008, by $342,743, and

   •   implement controls to ensure that the Medicare segment’s assets are updated in
       accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, CGS agreed with our findings and described corrective
actions that it planned to implement. CGS’s comments are included in their entirety as
Appendix B.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION....................................................................................................................... 1

          BACKGROUND .............................................................................................................. 1
              CIGNA Government Services, LLC, and Medicare ............................................. 1
              Federal Requirements ........................................................................................... 1
              Pension Segmentation ........................................................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2
               Objective ............................................................................................................... 2
               Scope ..................................................................................................................... 2
               Methodology ......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................. 3

          PENSION CLOSING AGREEMENT.............................................................................. 4

          UPDATE OF MEDICARE SEGMENT ASSETS ........................................................... 4
              Federal Requirements ........................................................................................... 4
              Earnings, Net Expenses Overstated ...................................................................... 4
              Contributions and Transferred Prepayment Credits Overstated ........................... 5

          RECOMMENDATIONS .................................................................................................. 5

          AUDITEE COMMENTS.................................................................................................. 5

APPENDIXES

          APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR
                      CIGNA GOVERNMENT SERVICES, LLC, FOR THE PERIOD
                      JANUARY 1, 2004, TO JANUARY 1, 2008

          APPENDIX B: AUDITEE COMMENTS




                                                                     iii
           Glossary of Abbreviations and Acronyms

CAS     Cost Accounting Standards
CGLIC   Connecticut General Life Insurance Company
CGS     CIGNA Government Services, LLC
CMS     Centers for Medicare & Medicaid Services
DME     durable medical equipment
FAR     Federal Acquisition Regulation
MAC     Medicare administrative contractor
WAV     weighted average value




                               iv
                                                 INTRODUCTION

BACKGROUND

CIGNA Government Services, LLC, and Medicare

During our audit period, CIGNA Government Services, LLC (CGS), administered Medicare
Part B and durable medical equipment (DME) operations for Connecticut General Life Insurance
Company (CGLIC), the legal entity that entered into these cost reimbursement contracts with the
Centers for Medicare & Medicaid Services (CMS). 1 In addition, CGS administered Medicare
operations under a Medicare administrative contractors (MAC) contract with CMS. 2 CGS and
CGLIC are wholly owned subsidiaries of CIGNA Corporation.

CGS participates in a defined benefit pension plan, which is a deferred compensation plan in
which an employer makes actuarially determined contributions to fund an employee’s retirement
benefit as defined by the plan’s terms. 3

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

In resolution of our prior pension segmentation audit (A-07-05-00189, issued January 11, 2007),
CGLIC executed a pension closing agreement with CMS to establish a final settlement of the
January 1, 2004, Medicare segment asset base.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into Medicare
contracts. The Medicare contracts define a segment and specify the methodology for the

1
    The DME contractual relationship was terminated on September 29, 2006.
2
    CGS assumed full DME Jurisdiction C MAC operations on June 1, 2007.
3
    CGS participates in employee benefit plans, such as the defined benefit pension plan, of its parent company,
    CIGNA Corporation.


                                                            1
identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CGS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

    •   implementing the January 1, 2004, Medicare segment asset base established by an
        executed pension closing agreement between CGLIC and CMS, and

    •   updating the Medicare segment’s assets from January 1, 2004, to January 1, 2008.

Scope

We reviewed CGS’s implementation of the pension closing agreement, identification of its
Medicare segment and update of the Medicare segment’s assets from January 1, 2004, to
January 1, 2008.

Achieving our objectives did not require us to review CGS’s overall internal control structure.
However, we reviewed controls relating to the implementation of the pension closing agreement,
the identification of the Medicare segment, and the update of the Medicare segment’s assets.

We performed fieldwork at CGS’s office in Nashville, Tennessee, during June 2009 and
February 2010.

Methodology

To accomplish our objective, we did the following:

   •     We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •     We reviewed Closing Agreement No. PEN-01 executed between CGLIC and CMS. We
         used this information to identify the Medicare segment assets as of January 1, 2004.

   •     We reviewed annual actuarial valuation reports prepared by CGS’s actuarial consulting
         firms, which included the pension plan’s assets, liabilities, normal costs, contributions,
         benefit payments, investment earnings, and administrative expenses. We used this
         information to calculate the Medicare segment assets.




                                                 2
   •    We obtained and reviewed the pension plan documents and Department of
        Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
        assets.

   •    We interviewed CGS staff responsible for identifying the Medicare segment to
        determine whether the segment was properly identified in accordance with the Medicare
        contracts.

   •    We reviewed CGS’s accounting records to verify the segment identification and benefit
        payments made to the Medicare segment.

   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment assets as of January 1, 2008.

   •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of CGS’s pension costs claimed for
Medicare reimbursement (A-07-10-00327) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

CGS properly implemented the January 1, 2004, Medicare segment asset base established by an
executed pension closing agreement between CGLIC and CMS. However, CGS did not always
comply with the Medicare contracts’ pension segmentation requirements while updating
Medicare segment assets to January 1, 2008. CGS identified Medicare segment pension assets of
$17,014,151; however, we determined that the Medicare segment pension assets were
$16,671,408 as of January 1, 2008. Thus, CGS overstated the Medicare segment pension assets
by $342,743. The overstatement occurred primarily because CGS did not properly assign
earnings, less administrative expenses, to the Medicare segment.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 2004, to
January 1, 2008, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.




                                               3
                         Table 1: Summary of Audit Adjustments
                                                   Per OIG     Per CGS                     Difference
Update of Medicare Segment Assets
  Earnings, Net Expenses                           $6,476,742  $6,792,385                  ($315,643)
  Contributions and Transferred Prepayment Credits  3,438,890   3,465,990                    (27,100)
Overstatement of Medicare Segment Assets                                                   ($342,743)

PENSION CLOSING AGREEMENT

CGLIC executed a pension closing agreement with CMS to establish a final settlement of the
January 1, 2004, Medicare segment asset base. CGS properly used the January 1, 2004,
Medicare segment asset base, established by the executed pension closing agreement with CMS,
in its computations.

UPDATE OF MEDICARE SEGMENT ASSETS

Federal Requirements

The Medicare contracts state that “… the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, permitted unfunded accruals, income, benefit payments,
and expenses. For plan years beginning after March 30, 1995, the CAS requires investment
income and expenses to be allocated among segments based on the ratio of the segment’s
weighted average value (WAV) of assets to Total Company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.
Prepayment credits are accounted for as part of the “Other” segment only for purposes of
allocating investment earnings and expenses between the segments.

Earnings, Net Expenses Overstated

CGS overstated investment earnings, less administrative expenses, by $315,643 for the Medicare
segment because it improperly omitted prepayment credits in the computation of the WAV of
assets when assigning the net investment earnings to the segment.




                                                 4
In our audited update, we allocated net investment earnings based on the applicable CAS
requirements. This included accounting for prepayment credits as part of the “Other” segment
for purposes of allocating net investment earnings between the segments, pursuant to CAS
412.50(a)(4). The inclusion of prepayment credits with the assets of the “Other” segment for the
purpose of allocating investment returns is consistent with the premise that prepayment credits
are the result of the plan sponsor’s investment decision to fund amounts in excess of the assigned
costs. Accordingly, the Federal Government should not share in the investment risk/reward
associated with those funds.

Based on our computations, we determined that CGS overstated the Medicare segment assets by
$315,643.

Contributions and Transferred Prepayment Credits Overstated

CGS overstated contributions and transferred prepayment credits for the Medicare segment by
$27,100. The overstatement occurred because CGS overstated the segment’s assignable pension
costs for the audit period. As a result, CGS overstated the Medicare segment assets by $27,100.

RECOMMENDATIONS

We recommend that CGS:

   •   decrease Medicare segment assets as of January 1, 2008, by $342,743, and

   •   implement controls to ensure that the Medicare segment’s assets are updated in
       accordance with the Medicare contracts.

AUDITEE COMMENTS

In written comments on our draft report, CGS agreed with our findings and described corrective
actions that it planned to implement. CGS’s comments are included in their entirety as
Appendix B.




                                                5
APPENDIXES
                                                                                                                           Page I of2

                     APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR 

                                   CIGNA GOVERNMENT SERVICES, LLC, 

                            FOR THE PERIOD JANUARY 1,2004, TO JANUARY 1,2008 


                   Description                           Total Company              "Other" Segment            Medicare Segment

      Assets January I, 2004                    II           $2,425,988,220              $2,414,921,503                 $11,066,717

      Transferred Prepayment Credits           ?d.                        0                   (841,641)                     841,641
      Contributions                            Ji.               60,000,000                 60,000,000                            0
      Earnings, Net Expenses                   1i               259,163,398                257,879,386                    1,284,012
      Benefit Payments                         2L              (224,929,194)              (224,386,124 )                   (543,070)
      Transfers                                §i.                        0                   (107,463)                     107,463

      Assets January 1,2005                                   2,520,222,424              2,507,465,661                   12,756,763

      Transferred Prepayment Credits                                      0                   (844,386)                     844,386
      Contributions                                             543,000,000                542,912,647                       87,353
      Earnings, Net Expenses                                    259,024,427                257,716,453                    1,307,974
      Benefit Payments                                         (230,078,171 )             (229,342,608)                    (735,563)
      Transfers                                                           0                   (324,308)                     324,308

      Assets January I, 2006                                  3,092,168,680              3,077 ,583,459                  14,585,221
                                                                                                           .
      Transferred Prepayment Credits                                      0                 (1,027,220)                   1,027,220
      Contributions                                                       0                          0                            0
      Earnings, Net Experlses                                   479,190,883                476,850,707                    2,340,176
      Benefit Payments                                         (244,180,210)              (241,964,667)                  (2,215,543)
      Transfers                                                           0                     52,272                      (52,272)

      Assets January I, 2007                                  3,327,179,353              3,311,494,551                   15,684,802

      Transferred Prepayment Credits                                      0                   (638,290)                     638,290
      Contributions                                  ~
                                                                          0                          0                            0
      Earnings, Net Expenses                                    317,943,453                316,398,873                    1,544,580
      Benefit Payments                                         (249,245,553)              (247,715,616)                  (1,529,937)
      Transfers                                                           0                   (333,673)                     333,673


      Assets January I, 2008                                 $3,395,877,253              $3,379,205,845                 $16,671,408
      Per CGS                                   7/           $3,395,877,253              $3J78,863, 102'                $17,014,151
      Asset Variance                            8/                       $0                    $342,743                  ($342,743)
 '"




FOOTNOTES

 lL We obtained the Medicare segment assets as of January 1,2004, from Closing Agreement No. PEN-O I. The Centers for
      Medicare & Medicaid Services (CMS) and Connecticut General Life Insurance Company entered into and executed this
      closing agreement in order to establish a final settlement of the January 1,2004, Medicare segment asset base. The amounts
      shown for the "Other" segment represent the difference between the Total Company and the Medicare segment. All pension
      assets are shown at market value.

 ?d. 	 Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding
      requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment
      credits are transferred to the Medicare segment as needed to cover funding requirements.
                                                                                                                      Page 20f2


2L We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal
    Revenue Service Forms 5500. We accepted CIGNA Government Services, LLC's (CGS), methodology whereby only
    contributions actually made during a plan year were considered as funding for that year. We allocated Total Company
    contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
    Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for
    in the "Other" segment until needed to fund pension costs in the future.

1L We obtained net investment earnings from actuarial valuation reports and documents prepared by CGS's actuarial consulting
    firms. We allocated net investment earnings based on the ratio of the segment's weighted average value (WA V) of assets to
    Total Company WA V of assets as required by the Cost Accounting Standards (CAS).

~   We
     	 based the Medicare segment's benefit payments on actual payments to Medicare segment retirees. We obtained
    information on the benefit payments from documents provided by CGS. We reviewed and accepted CGS's benefit payments
    to Medicare segment retirees.

QL 	 We identified participant transfers between segments by comparing valuation data files provided by CGS. Asset transfers
     were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS. We
     reviewed and accepted CGS's participant transfers.

1f. We obtained total asset amounts as of January 1,2008, from documents prepared by CGS's actuarial consulting firms.

~   The
     	  asset variance represents the difference between our calculation of Medicare segment assets and CGS's calculation of
    Medicare segment assets.
                 APPENDIX B: AUDITEE COMMENTS 




Steve Bld.op
Accounting Dir«lor




                                                                           elGNA Government
                                                                           Services


                                                                           Rout i ng 795
May 14,2010                                                                Two v . "tog' W.y
                                                                           :-I.,hvillc, TN 3 7221
                                                                           Tdeplwn, tilS 782 ·4616
                                                                           h",imil. <\1'\-2-';2-36>0
                                                                           'l<phon .b"hop@c;gn •.com
Patrick J. Cogley
Regional Inspector General for Audit Services
601 East 12th Street, Room 0429
Kansas City, Missouri 64106


Dear Mr. Cogley:

This letter is in response to Audit Report No. A-07· \ 0-00326, which noted an overstatement of
the Medicare segment assets of $342,743, and A-07-\ 0-00327, which cited unallowable pension
costs of $12, 130 for the fiscal years 2005 - 2007, in accordance with CAS 412 and 41 J .

CIGNA Government Services, LLC ("COS") agrees with the findings in both reports (lnd will
make the appropriate adjustmelll to our FACP aud reimburse CMS aCCOIJiJlgJy_ We will also
instruct our actuaries to adjust the Medicare segment assets as noted .

Please feel free to contact Kara Fitzgerald at 6 15.782.4687 or mysel f at 615.782.4616 if you
have questions regarding this response.

Sincerely,



s~1j
